HHS/OIG-Audit--"Review of Retrocative Adjustments Filed by Massachusetts Under the Title IV-E Foster Care Program, (A-01-98-02505)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Retroactive Adjustments Filed by Massachusetts Under the Title IV-E Foster Care Program," (A-01-98-02505)
February 29, 2000
Complete
Text of Report is available in PDF format (4.79 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that, based on a statistical sample, Massachusetts retroactive foster care claims totaling
at least $21.8 million ($10.9 million Federal share) did not meet Title IV-E reimbursement requirements. Primary problems
were that the State was unable to produce sufficient documentary evidence that judges made a determination that it was
contrary to the welfare (CTW) of the child to remain at home and that reasonable efforts (RE) were made to maintain the
child in the home and preclude the need to place the child in foster care. We are referring the projected overpayments
to the Administration for Children and Families for their review and determination of an appropriate resolution. We are
also recommending that the State improve controls to ensure that written CTW and RE judicial determinations are appropriately
documented, and ensure that internal control weaknesses in prior claiming systems have been resolved and recently implemented
controls are included in claim preparation and submission procedures.